<html>
<title> - RUSSIAN AND CHINESE NUCLEAR ARSENALS: POSTURE, PROLIFERATION, AND THE FUTURE OF ARMS CONTROL</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                 RUSSIAN AND CHINESE NUCLEAR ARSENALS:
                 POSTURE, PROLIFERATION, AND THE FUTURE
                            OF ARMS CONTROL

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 21, 2018

                               __________

                           Serial No. 115-141

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 

                      or http://www.gpo.gov/fdsys/

                                
                                __________
                                

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-499PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f097809fb09385838498959c80de939f9dde">[email&#160;protected]</a>                      
                      
                      
                      
                     
                      
                      
                      
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania            TULSI GABBARD, Hawaii
RON DeSANTIS, Florida                JOAQUIN CASTRO, Texas
MARK MEADOWS, North Carolina         ROBIN L. KELLY, Illinois
TED S. YOHO, Florida                 BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
F. JAMES SENSENBRENNER, Jr.,         THOMAS R. SUOZZI, New York
    Wisconsin                        ADRIANO ESPAILLAT, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

         Subcommittee on Terrorism, Nonproliferation, and Trade

                        TED POE, Texas, Chairman
JOE WILSON, South Carolina           WILLIAM R. KEATING, Massachusetts
DARRELL E. ISSA, California          LOIS FRANKEL, Florida
PAUL COOK, California                BRENDAN F. BOYLE, Pennsylvania
SCOTT PERRY, Pennsylvania            DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
BRIAN J. MAST, Florida               BRADLEY SCOTT SCHNEIDER, Illinois
THOMAS A. GARRETT, Jr., Virginia
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Austin Long, Ph.D., senior political scientist, RAND Corporation.     7
Patricia M. Kim, Ph.D., Stanton Nuclear Security Fellow, Council 
  on Foreign Relations...........................................    20
The Honorable Frank Rose, senior fellow, Security and Strategy, 
  Foreign Policy Program, The Brookings Institution (former 
  Assistant Secretary for Arms Control, Verification, and 
  Compliance, U.S. Department of State)..........................    29

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Ted Poe, a Representative in Congress from the 
  State of Texas, and chairman, Subcommittee on Terrorism, 
  Nonproliferation, and Trade: Prepared statement................     2
The Honorable William Keating, a Representative in Congress from 
  the Commonwealth of Massachusetts: Prepared statement..........     5
Austin Long, Ph.D.: Prepared statement...........................    10
Patricia M. Kim, Ph.D.: Prepared statement.......................    22
The Honorable Frank Rose: Prepared statement.....................    31

                                APPENDIX

Hearing notice...................................................    54
Hearing minutes..................................................    55

 
                 RUSSIAN AND CHINESE NUCLEAR ARSENALS:
                    POSTURE, PROLIFERATION, AND THE
                         FUTURE OF ARMS CONTROL

                              ----------                              


                        THURSDAY, JUNE 21, 2018

                     House of Representatives,    

        Subcommittee on Terrorism, Nonproliferation, and Trade,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:00 p.m., in 
room 2172 Rayburn House Office Building, Hon. Ted Poe (chairman 
of the subcommittee) presiding.
    Mr. Poe. The subcommittee will come to order. Without 
objection, all members may have 5 days to submit statements, 
questions, and extraneous materials for the record and subject 
to length limitation in the rules. The Chair will dispense with 
my opening statement and I will file it as part of the record. 
I will yield to the ranking member, Mr. Keating, from 
Massachusetts.
    [The prepared statement of Mr. Poe follows:]
    
 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
                              ----------                              

    Mr. Keating. Thank you, Mr. Chairman. I will also submit my 
opening statement for the record because of the delay and it 
occurs on the rollcall, and I will yield back to you. I thank 
our witnesses for being here, particularly Mr. Rose who once 
lived in America's hometown: Plymouth, Massachusetts. I yield 
back.
    [The prepared statement of Mr. Keating 
follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                              ----------                              

    Mr. Poe. Without objection, the witnesses' prepared 
statements will be made part of the record, and I will ask that 
each witness keep their presentation to no more than 5 minutes. 
I will introduce each witness and then give them time for their 
opening statement.
    The first witness, Dr. Austin Long, is a senior political 
scientist at the Rand Corporation. Previously, he was an 
associate professor at Columbia University's School of 
International and Public Affairs.
    Dr. Patricia Kim is the Stanton Nuclear Security Fellow at 
the Council on Foreign Relations. She was previously a fellow 
at the Princeton-Harvard China and the World Program at the 
Woodrow Wilson School of Public and International Affairs.
    And Mr. Frank Rose from Plymouth, Massachusetts is senior 
fellow for Security and Strategy in the Foreign Policy Program 
at the Brookings Institution. Previously he has served as 
assistant secretary of state for Arms Control, Verification, 
and Compliance.
    Welcome to all three of the witnesses here. Each of you are 
limited to 5 minutes. Your statements are part of the record, 
so when you see the red light come on before you, that means to 
stop.
    So we will start with Dr. Long. You may make your opening 
statement.

 STATEMENT OF AUSTIN LONG, PH.D., SENIOR POLITICAL SCIENTIST, 
                        RAND CORPORATION

    Mr. Long. Chairman Poe, Ranking Member Keating, and members 
of the subcommittee, thank you for inviting me to address the 
important concerns about Russia's nuclear posture and the 
future of arms control. I will briefly summarize key 
developments in Russian nuclear forces as well as some of the 
factors driving those developments. I will then discuss the 
implications of Russian nuclear developments for the future of 
arms control.
    Russia is modernizing almost every part of its nuclear 
arsenal including short-range systems, intercontinental 
ballistic missiles, submarine launch missiles, and air launch 
cruise missiles. I provide more detail on Russian modernization 
in my written testimony, but three developments stand out.
    First, President Vladimir Putin announced in March that 
Russia has invested in two novel, strategic nuclear delivery 
systems. The first is a long-range nuclear-powered and nuclear-
armed autonomous underwater vehicle. The second is an 
intercontinental range, nuclear-powered and nuclear-armed 
cruise missile. In addition, the U.S. Government in 2014 
declared Russia to be testing and subsequently deploying an 
intermediate range ground launch cruise missile in violation of 
the intermediate nuclear forces or INF Treaty.
    Russian nuclear development is driven in large part by fear 
that the combination of U.S. nuclear, conventional, and missile 
defense capabilities could greatly reduce the effectiveness of 
Russian deterrence based on nuclear retaliation. These fears 
date back to the Cold War but were amplified following the U.S. 
withdrawal from the Anti-Ballistic Missile Treaty in 2002.
    Russia's fears, justified or not, could potentially 
precipitate a nuclear crisis between the United States and 
Russia. Russian leaders could perceive unrest or revolution in 
one of its neighbors as engineered by the United States and 
take what they believe to be appropriate defensive measures. 
U.S. and NATO leaders could take what from their perspective 
are equally defensive measures resulting in a crisis and 
possible conflict.
    Moreover, if conflict did happen, Russian military 
commanders might recommend limited nuclear use if Russia's non-
nuclear capabilities fail to terminate the conflict promptly. 
Whether Russian political leaders would accept such a 
recommendation is unknowable, but this scenario underscores 
that even if Russian intentions are largely defensive, nuclear 
crisis and limited nuclear use are possible.
    This scenario also highlights the importance of arms 
control, yet prospects for arms control are grim. Russia denies 
it is violating the INF Treaty, instead leveling counter 
accusations against the United States with no progress on this 
deadlock since 2014. In contrast, both sides agree they are 
broadly in compliance with START, the new Strategic Arms 
Limitation Treaty or New START. New START expires in 2021, 
although there is an option to extend it for 5 years if both 
parties agree. However, dialogue appears frozen at present as I 
discuss in more detail in written testimony.
    From the U.S. perspective as embodied in the 2018 Nuclear 
Posture Review, Russia is an unrepentant violator of existing 
arms control agreements. From the Russian perspective, the 
United States has been neutralizing Russia's strategic 
deterrent and destroying the Russian state. Given these 
divergent views, the instinct may be to simply walk away from 
arms control.
    While this is understandable, arms control can provide 
transparency and communication that help prevent nuclear crisis 
scenarios like the one described previously. For example, even 
as U.S.-Russia relations have grown tense, under New START both 
sides have conducted more than a 130 onsite inspections while 
exchanging data thousands of times. The most comprehensive 
solution may be to start from scratch with a broader set of 
negotiations on new, mutually acceptable limits for 
intermediate range systems, the new Russian systems, and 
missile defenses. Yet, the United States is reluctant to limit 
missile defenses against North Korea and Iran even if it does 
not seek to neutralize Russia's strategic deterrent as the 
Kremlin fears. Such a solution will also likely take a very 
long time to negotiate.
    Absent such a comprehensive solution, it seems unlikely the 
Russian Government will change its behavior. The United States 
will thus be faced with a stark choice by 2021: Maintain New 
START despite Russian arms control violations or allow New 
START to expire and possibly withdraw from the INF Treaty as 
well. Maintaining New START will preserve valuable 
transparency, yet may confirm to the Russians that the United 
States treats each arms control issue separately. This could 
encourage further violations of INF and other treaties.
    Allowing New START to expire would demonstrate that arms 
control violations have real consequences, yet it would mean 
for the first time in more than three decades that U.S.-Russian 
nuclear competition would be unrestrained. Perhaps a key 
indicator for the future would be how the Russians seek to 
present the novel systems Putin revealed in March. New START 
includes a provision on novel systems, so if the Russians are 
willing to address these systems for potential inclusion in New 
START limitations as President Putin has, himself, publicly 
suggested, then extension may make sense despite Russian 
violation of INF and other treaties.
    If the Russians are unwilling to engage in productive, 
official dialogue on these novel systems, it is hard to see a 
future for New START or, indeed, arms control generally. Thank 
you for your time, and I look forward to your questions.
    [The prepared statement of Mr. Long follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Poe. Thank you Dr. Long.
    Dr. Kim?

 STATEMENT OF PATRICIA M. KIM, PH.D., STANTON NUCLEAR SECURITY 
              FELLOW, COUNCIL ON FOREIGN RELATIONS

    Ms. Kim. Chairman Poe, Ranking Member Keating, members of 
the subcommittee thank you for the opportunity to testify today 
on China's nuclear posture, a complex and evolving topic that 
will have significant implications for the security of the 
United States, our allies, as well as global nonproliferation 
efforts.
    First, with China's nuclear doctrine, China has 
historically sustained a relatively small nuclear arsenal that 
is focused on deterring a nuclear attack by maintaining a 
credible second strike capability, which means the ability to 
deliver a retaliatory nuclear strike in the response to an 
adversary's initial first attack. According to China's latest 
defense white paper published in 2015, the Chinese Government 
is committed to pursuing a defensive nuclear strategy and 
states that it intends to keep its nuclear capabilities at a 
minimum level that is solely focused on deterrence and stopping 
others from threatening China with nuclear weapons.
    Since China conducted its first nuclear test in 1964, it 
has adopted a no-first-use policy, which commits to refrain 
from attacking any entity first with nuclear weapons and to 
never use or threaten the use of nuclear weapons against a non-
nuclear weapons state. Some, however, have raised the question 
of whether China is truly committed to this no-first-use 
policy. They point to various debates within China with some 
Chinese strategists calling on Beijing to qualify this policy 
and exempt certain types of non-nuclear attacks or others 
saying that China should get rid of this policy altogether so 
that it could prevent others from challenging China's 
territorial claims.
    But it is important to note that these arguments have been 
countered by other Chinese strategists who say that China's no-
first-use policy has actually served its purpose well and that 
letting go of this policy would actually open up a can of 
worms. Also, it is important to note that these debates do not 
represent the official views of the Chinese Government, and 
they are usually carried on by retired military officials or 
academics within China.
    But they do provide a window into the way China's nuclear 
strategy could evolve if more hawkish voices were to prevail in 
the future. While China doesn't release official information on 
its nuclear arsenal, it is believed to possess a small but 
expanding arsenal of about 280 nuclear warheads. In addition to 
adding about 40 nuclear warheads since 2010, Beijing has 
focused its efforts on advancing its nuclear delivery systems 
as part of its broader drive to become a world-class military 
power by 2049. These developments have included a MIRV-capable 
ICBMs as well as a ballistic missile submarine.
    It is important, however, not to overstate China's nuclear 
capabilities and to place its nuclear modernization in the 
broader, comparative context. The United States and Russia 
still possess 90 percent of the world's nuclear weapons and are 
in the midst of their own nuclear modernization programs. 
Furthermore, China lags far behind the United States in terms 
of its nuclear delivery capabilities.
    Barring fundamental changes in China's internal or external 
environment that wholly transform China's nuclear calculus, it 
is unlikely that China will shift away from its emphasis on 
minimum deterrents and strive to reach parity with the United 
States' nuclear capabilities in the foreseeable future. It is 
also vital to note that the United States actually has the 
greatest influence on the trajectory of China's nuclear force 
modernization. Beijing is especially wary of U.S. capabilities 
that can challenge its minimum deterrent and is watching 
closely what we do with ballistic missile defense and theater 
missile defense. And Beijing firmly believes that theater 
missile defense especially is a U.S. tool that is meant to 
contain China.
    On arms control, I will save my remarks since I am running 
out of time for the Q&A, but China is a part of several or most 
multilateral arms control agreements. And in terms of 
nonproliferation, China in the past has contributed to 
proliferation, but it has become more conservative in recent 
years especially as it consolidates its great power status. And 
since joining the NPT in 1992, China states that it opposes 
nuclear proliferation. Obviously, it has not lived up to these 
commitments, and the U.S. has fined or sanctioned Chinese 
entities, for instance, for engaging in proliferating 
activities so there are certainly concerns there.
    Let me move to my policy recommendations briefly. I would 
like to remark that as China begins to modernize its nuclear 
weapons arsenals, I think it is very important for us to engage 
in bilateral confidence building and avoid spurring an action/
reaction dynamic. At the same time, it is very important to 
strengthen our alliances and reassure our allies as they watch 
China grow its arsenal and also its conventional capabilities. 
And also it is very important to leverage China's desire for 
stability.
    So China, Xi Jinping, has set out many ambitious goals for 
his country, and none of these can be met if a nuclear war was 
to break out on China's borders because of a crisis on the 
Korean Peninsula, for instance. So I think it is very important 
for the U.S. leaders to push Chinese leaders to do more in 
terms of nonproliferation for their own strategic interests.
    And finally, I think it is very important for the United 
States to set a leading tone on arms control. As a responsible 
great power, the United States should lead the charge and not 
introduce new nuclear weapons, work to raise the threshold for 
nuclear conflict, and continue to rally its counterparts to 
work toward reducing and ultimately ridding the world of 
nuclear weapons. Thank you very much.
    [The prepared statement of Ms. Kim follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Poe. Thank you Dr. Kim.
    Mr. Rose?

STATEMENT OF THE HONORABLE FRANK ROSE, SENIOR FELLOW, SECURITY 
AND STRATEGY, FOREIGN POLICY PROGRAM, THE BROOKINGS INSTITUTION 
(FORMER ASSISTANT SECRETARY FOR ARMS CONTROL, VERIFICATION, AND 
             COMPLIANCE, U.S. DEPARTMENT OF STATE)

    Mr. Rose. Chairman Poe, Ranking Member Keating, members of 
the subcommittee, it is an honor to appear before you today to 
discuss Russian and Chinese strategic capabilities and their 
implications for U.S. strategy and arms control. Let me begin 
by stating that although I am currently a senior fellow at The 
Brookings Institution, I am testifying today in my personal 
capacity.
    As my colleague, Thomas Wright, notes in his recent book, 
All Measures Short of War, the United States is in competition 
with Russia and China for the future of the international 
order. As part of that competition, Russia and China are 
modernizing their nuclear forces and are also developing new 
disruptive technologies. In my testimony today I want to hit 
three areas. First, Russian and Chinese nuclear modernization 
programs; second, Russia and China's development of asymmetric 
capabilities such as offensive cyber and counter space; and 
then, finally, provide you a few recommendations on how the 
United States should respond.
    Now Dr. Long and Dr. Kim, I think, did a nice job at 
outlining the Russian and Chinese nuclear threat, and I am in 
general agreement with that. I go into more detail in my 
written statement. So I really want to focus on the latter two 
points: Offensive cyber and counter space as well as my 
recommendations for the United States.
    Russia and China understand that the United States is 
dependent on cyber and outer space capabilities. Therefore, 
they are developing a series of offensive cyber and counter 
space capabilities designed to degrade-defeat-destroy U.S. 
space in cyber space networks. These types of asymmetric 
capabilities could have significant implications for strategic 
deterrents, especially nuclear command, control, and 
communications.
    The United States requires a comprehensive strategy to 
effectively manage the strategic challenge from Russia and 
China. The foundation of that strategy must be to maintain a 
safe, secure, and effective strategic nuclear deterrent. 
Therefore, I recommend the United States take the following 
steps as part of that strategy: Complete the modernization of 
its strategic nuclear delivery systems and supporting 
infrastructure, enhance the resiliency of our outer space, 
cyber, and undersea communications infrastructure, and maintain 
the cohesions of our alliances.
    From a geopolitical perspective, the U.S. system of 
alliances is one of our asymmetric advantages and something 
that neither Russia or China possess. And from a military 
perspective, the United States needs our allies to defend the 
U.S. homeland from strategic threats. Indeed, radars, 
communication stations, and relay ground stations based on 
allied territory are critical to the strategic deterrents and 
homeland missile defense missions. Furthermore, we should 
extend the New START Treaty and explore the role that arms 
control may play in helping manage great power competition in 
the future.
    We also need to engage Russia and China in bilateral 
dialogues focused on reducing the risk of nuclear 
miscalculation and promoting stability. We need to advance a 
broader international conversation about strategic stability 
that includes other strategic actors such as Britain, France, 
India, and Pakistan. We need to develop norms of responsible 
behavior to help manage competition in a merging domain such as 
outer space and cyber. And, finally, we need to explore whether 
the United States Government, in particular the Departments of 
State and Defense, is structured in a way to appropriately 
allow the United States to effectively manage great power 
competition in the strategic domain.
    Thank you very much, Mr. Chairman, and I look forward to 
your questions.
    [The prepared statement of Mr. Rose follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Poe. I thank all three of you for your testimony and 
your written statement, and now we will proceed to some 
questions. You have all the answers. We have some questions for 
you.
    Where did Pakistan get its nuclear capability, Dr. Kim?
    Ms. Kim. So I want to note, first of all, that I only work 
with open source, so there may be greater expertise here on the 
panel.
    Mr. Poe. All right, Dr. Long or Mr. Rose, where did 
Pakistan get its nuclear capability?
    Mr. Rose. Sir, I am not an expert on Pakistan, but I think 
if you look at the available evidence, there is probably a case 
that could be made that China potentially helped Pakistan, but 
I don't know. So again, I am not an expert on Pakistan, but I 
think that would be a good bet. And you may recall A.Q. Khan 
played a very, very important role, and there is a possibility 
of some North Korean links there as well.
    Mr. Poe. He has been trying to proliferate the whole world, 
A.Q. Khan.
    Do you have any disagreement with what Mr. Rose said, Dr. 
Long?
    Mr. Long. I don't. I agree with Mr. Rose.
    Mr. Poe. All right, let me go on to something else. Russia 
is not in compliance with the INF Treaty. Do any of the three 
of you disagree with that statement?
    Mr. Rose. No sir.
    Mr. Poe. Dr. Kim?
    Ms. Kim. No.
    Mr. Poe. And we can agree that in the last year in the NDAA 
appropriations bill, Congressman Rogers and I introduced 
legislation to encourage them to be in compliance. Have you 
seen any change in the Russian endeavor to comply with the INF 
Treaty?
    Dr. Long?
    Mr. Long. I have not. The Russians so far as I am aware 
continue to deny that they are in violation of the treaty.
    Mr. Poe. I used to be a judge. The guilty always denied 
they were guilty, and the more they denied the guilt, the more 
we knew they were guilty. The Russians are a perfect example of 
that. I have seen some of their ranting and raving about how 
they are in compliance and we are not in compliance. That is 
their position, I understand, but the truth is they are not in 
compliance. Okay. What are we doing about it?
    Mr. Rose. Sir, I fully agree with your assessment that they 
are not in compliance. I testified before your subcommittee 
last year.
    Mr. Poe. You did.
    Mr. Rose. And I made a number of recommendations. Yes, we 
should use diplomacy to try to bring them back in. However, the 
Trump administration has run into the same challenges that the 
Obama administration found.
    Here is what I would say, sir. You have to put the INF 
violation in a broader context and that broader context is 
this: Russia does not believe that the Euro-Atlantic 
architecture put in place at the end of the Cold War is in 
their interest. And slowly but surely, they have been pulling 
out all of the building blocks associated with that Euro-
Atlantic security architecture.
    Mr. Poe. Excuse me for interrupting, Mr. Rose. The question 
is what should we do, not what are they doing.
    Mr. Rose. Yes.
    Mr. Poe. What should we do?
    Mr. Rose. Well, I would recommend a couple of things. One, 
moving forward with our strategic modernization program; two--
--
    Mr. Poe. And you mean by that ratcheting up our nuclear 
weapon capability. Is that what you are talking about?
    Mr. Rose. Well, what I would say, sir, is funding our 
existing program that was laid out. That is really, that is the 
bedrock of everything we need to do. But then I recommend a 
couple of other specific things. For example, I think we should 
develop a conventional variant of the long-range standoff 
nuclear cruise missile to allow us to hit targets in Russia. I 
think we should consider some limited cruise missile defense to 
protect specific assets in Europe. And thirdly, I think we need 
to work with our allies to make sure that they have precision 
strike capabilities such as Tomahawk and JASSM-ER.
    Mr. Poe. All right, one more question about that. We agree 
that Russia is not in compliance. Is the United States in 
compliance with the treaty that we signed with the Russians?
    Mr. Rose. Yes sir.
    Mr. Poe. So we are abiding by the treaty. The Russians are 
not abiding by the treaty. We know they are not abiding by the 
treaty, and they are just making matters worse. I mean Putin 
just recently said that they have new missiles that will be 
able to take down any of our missiles that we launch. Should we 
take him seriously when he says that or is he just 
pontificating?
    Dr. Long?
    Mr. Long. He is not pontificating, but a lot of the systems 
that he has described are in development. They are not fielded 
systems. So I think you have to take Putin's word seriously but 
not to imagine that they have a much greater capability than 
the United States that has been deployed.
    Mr. Poe. All right, a question about China. China is 
developing land mass in the South China Sea. It is taking 
reclaimed areas and making an island in the middle of several 
places in the South China Sea, then they are militarizing the 
island claiming that territory for China.
    Dr. Kim, what do you think China's long-term plan is for 
those little military islands that they have started developing 
in the South China Sea?
    Ms. Kim. China wants to expand its control. It wants to 
expand its military presence, and that is exactly what it is 
doing.
    Mr. Poe. So you think they are going to militarize those 
little islands?
    Ms. Kim. They already have begun to do it.
    Mr. Poe. Yes, some of them.
    All right, my time is expired. I will turn to the ranking 
member from Plymouth, Massachusetts.
    Mr. Keating. Thank you, Mr. Chairman. I want to focus on 
what our strategy should be in particular, and I want to look 
at just a few areas if you could comment on it. Number one, 
with the role of our allies, the strength, and Mr. Rose touched 
on this, the importance of the role of our allies and the 
advantages that we have in that regard and what we should be 
wary of, particularly after our pulling out of the Iran nuclear 
agreement. Number two, the thing I am most concerned about, I 
think, is counter space and offensive cyber capabilities, and 
are we lagging in that way? I have a feeling we are. Should 
that be a real priority if we have to choose where to focus the 
most assets?
    And the third is the discussion we have. I agree with 
modernization, but there is also a discussion about a low-yield 
weapon. To me, once you are in the nuclear theater, you are in, 
and what sounds like a low-yield kind of weapon, my 
understanding is that has more destructive powers than 
Hiroshima. So how low yield, really, is it, and what is our 
strategic value in that frankly? So could you comment on those 
three things, anyone? I gave it to you all at once so you could 
prioritize.
    Mr. Rose. Sir, with regards to the allies, it is our 
asymmetric advantage from a political perspective, but I want 
to pound the table on this point. The United States cannot do 
the Strategic Deterrence Mission or the homeland missile 
defense mission without access to facilities located on allied 
territory. So our security is intricately linked to the 
security of our allies.
    Mr. Keating. Excuse me, what about Turkey? I should mention 
that specifically.
    Mr. Rose. Turkey. Turkey plays an important role because 
they host a NATO missile defense radar which provides important 
radar information to protect all NATO allies including the 
United States.
    Mr. Keating. Okay, I am sorry. Go ahead.
    Mr. Rose. Yes. With regards to counter space and cyber, I 
think we are lagging, but I think we are making progress. But I 
think Congress needs to focus attention on these two areas, and 
the other area is undersea communications cables. You saw last 
week that the U.S. Treasury Department sanctioned several 
Russian entities for concerns that these entities could be 
going after or tampering with undersea communications cables 
where 90 percent of all trans-oceanic communications go 
through. So we have got to focus on those issues as well.
    Finally----
    Mr. Keating. Very good. I am glad because that strikes 
close to home too because two of the areas that will be 
receiving grants in that area will be SMAST underwater 
research, University of Massachusetts in my district, and the 
Woods Hole Institution. So I agree with that too.
    Mr. Rose. And finally on the low-yield system, sir, I mean 
it is a nuclear weapon. You know, a nuke is a nuke, and we want 
to try to avoid using nuclear weapons under all circumstances 
if possible. But at the same time, we need effective 
capabilities to deter potential----
    Mr. Keating. If I could interrupt, I just want to see if 
there is anything Dr. Kim or Dr. Long want to focus in on that 
in particular. But even with the additional revenues we are 
going to get for funding in these areas, we have to still 
choose priorities. So I am hearing cyber space, underwater 
spaces, are things that we should elevate perhaps----
    Mr. Rose. Yes.
    Mr. Keating [continuing]. From where we are.
    Dr. Kim?
    Ms. Kim. I actually just want to address your point on 
allies. You know, I think that is our greatest, our alliance 
system in East Asia is our greatest comparative advantage.
    Mr. Keating. Is Iran, pulling away from that deal do you 
think that could hurt our ability to----
    Ms. Kim. Iran, pulling out of, I mean certainly when our 
allies are asking us to stay in, I think it is damaging to walk 
away from a deal that we have committed to. But, you know, 
turning back to East Asia and the Korean Peninsula, I think it 
is very important during this time when China is starting to 
expand its military capabilities and our allies are watching 
this happen, it is very important that we reassure them that we 
continue to hold regular military exercises.
    Mr. Keating. Do you favor THAAD, implementation of THAAD in 
South Korea?
    Ms. Kim. You know, the purpose of THAAD is to defend 
against a North Korean nuclear threat. The threat still exists 
so in that sense yes, but I think it will be very difficult to 
sustain an argument for THAAD now that we have signed on to an 
agreement to pursue a peace regime on the Korean Peninsula.
    Mr. Keating. If I could interrupt.
    Dr. Long, just to hear from--thank both of you, yes.
    Mr. Long. Briefly on the question of low-yield nuclear 
weapons, the United States already fields relatively low-yield 
systems in the air lag of the triad. The discussion in the 
Nuclear Posture Review is about expanding that capability to 
the submarine portion of the triad. It is a relatively 
inexpensive option if you believe that capability is needed and 
it improves the odds of delivery. But the utility would depend 
very much on the circumstances.
    Mr. Keating. And where would you rank that versus, you 
know, increased counter space and cyber investments?
    Mr. Long. I think in terms of priorities, it is one of the 
least expensive parts of modernization. So I think counter 
space and offensive cyber capabilities, and I commend the NDAA 
last year for calling for a cyber posture review to see what 
the gaps are. But fundamentally I think the low-yield option is 
not going to be the big tradeoff with those systems.
    Mr. Keating. Okay. I thank all of you. I yield back.
    Mr. Poe. I thank the gentleman from Massachusetts. The 
chair recognizes the gentleman from Illinois, Mr. Schneider.
    Mr. Schneider. Thank you, and thank you to the witnesses 
for joining us today. And I appreciate the depth of your 
submitted testimony, and I don't want to focus on all that, but 
I found it very helpful. Maybe trying to narrow and focus in on 
a specific region, the Middle East, but I will also include 
North Korea. Russia and China as well have--it has been 
reported--have helped Iran, Syria, and North Korea in their 
nuclear programs.
    To what extent do you believe that the two countries have 
helped these programs with proliferation, and to what extent, 
if any, are you aware of sanctions on China and Russia for 
their activities? And I will take it to the next logical 
conclusion, what should we be doing to address it and prevent 
it going forward?
    Mr. Long. I will just touch on Russia. Russia has certainly 
provided support to aspects of Iran's nuclear program including 
helping build the reactor at Bushehr. I would say the main 
support Russia has given to Iran has been more in the political 
sphere and also in the general military arms sphere. So they 
have sold a variety of systems to Iran. A lot of that was 
delayed pending the JCPOA but has since gone forward. Russia 
still believes the JCPOA should be maintained.
    Mr. Schneider. So to the extent, let me just add that 
Russia now is essentially the linchpin in holding the Assad 
regime in power. Any evidence of Russia's support for a nuclear 
program in Syria?
    Mr. Long. As far as I am aware, the support that the Assad 
regime has received has not been from Russia. It has been more 
from North Korea, according to open sources.
    Mr. Schneider. All right, Mr. Rose?
    Mr. Rose. Sir, I am not really that competent to respond to 
that question, but let me get the second part of your question, 
and that is do we need to work with Russia and China to prevent 
this proliferation. Absolutely. And that is one of the reasons 
why I recommended these bilateral strategic stability 
dialogues. One of the agenda items in those bilateral dialogues 
needs to be nonproliferation concerns around the world and 
trying to get them through a bilateral channel to stop any bad 
behavior.
    Mr. Schneider. Dr. Kim?
    Ms. Kim. Yes, so I would just add to that. I think for 
China in the past, in the second half of the Cold War China did 
help, for instance, Pakistan with its nuclear weapons program. 
But having said that, I think in recent years--in recent 
decades--China hasn't--I don't think it is the central 
government that has been directly helping countries like North 
Korea with their nuclear weapons so much as China's lax 
enforcement of sanctions and export controls.
    So that is really where China doesn't live up to its 
expectations, and I think according to the State Department's 
compliance report on arms control and nonproliferation, Chinese 
entities continued to supply missile programs of proliferation 
concern in 2017. So the concern is still there, and I think it 
is very important for the United States to work with the 
central government of Beijing to get them to crack down on 
these subnational actors who are probably motivated by profit 
more than strategic concern.
    Mr. Rose. Yes sir. I would agree with Dr. Kim's assessment.
    Mr. Schneider. Great, thank you. Shifting gears a little 
bit and, you know--the last minute that I have--the long term 
implications as we are moving down a path with North Korea with 
nuclear weapons, Iran pursuing nuclear weapons, China, Russia 
expanding their arsenal--how do we ensure that U.S. strategic 
interests are preserved and ultimately long term that we are 
reducing, someday maybe even eliminating, the threat of nuclear 
war?
    Mr. Rose. Sir, do you mind? What I will say is, one, I 
think we have to maintain a strong strategic deterrent. But we 
also--and I talk about this in my testimony--we need to begin a 
broader discussion on the future of global stability that 
brings other actors such as India, Pakistan, the U.K, and 
France into a broader discussion. We do have a process in its 
infancy through the P5 process, and I recommend in my testimony 
that we build on that.
    Mr. Schneider. Right.
    Dr. Long? Dr. Kim? Anyone have----
    Ms. Kim. I would just add that I think the United States 
needs to set the tone because no one else will in terms of 
working toward Global Zero. And so I think we should be working 
to raise the threshold of nuclear conflict not introducing new 
weapons, and that is something that the United States needs to 
lead the push for.
    Mr. Long. I would just echo Mr. Rose's comments about the 
need to maintain a strong strategic deterrent even if that in 
some cases will seem to lead away from Global Zero at least in 
the medium term. It is my belief that maintaining that 
strategic deterrent will be necessary for the foreseeable 
future.
    Mr. Schneider. Great. Again, thank you for sharing your 
perspectives, and I am out of time. I yield back.
    Mr. Poe. We will have another short round of questions. 
Let's talk about submarines. The United States--and just 
disregard conventional submarines and talk about nuclear 
submarines only. My understanding is that the United States has 
about 14. The Chinese have six--rapidly developing and building 
more. The Russians have about six--developing rapidly more, the 
ability to of course take their nuclear weapons with their 
missiles anywhere they want to in the world.
    I have also--it is my understanding--this could be right or 
wrong, I don't know, but that was also the long-term goal of 
the North Koreans--to go nuclear, to have nuclear submarines 
along with nuclear weapons and missiles as well, to develop 
that for the same reasons because you can move those submarines 
around.
    How are we combating, if we are combating--what are we 
doing about those facts that Russia and China, primarily, are 
we able to keep up with what they are developing or not or what 
is your perspective in that issue--nuclear subs with nuclear 
weapons on the board?
    Dr. Long?
    Mr. Long. So it is true that both Russia and China are 
working to modernize their strategic nuclear missile 
submarines. The Russians have deployed a new class. The Chinese 
are trying to do so as well. The United States plans to deploy 
a new, more advanced system to replace our Ohio-class 
submarines--the Columbia-class submarines--so that is part of 
the nuclear modernization program.
    There is also the counter, which is to pursue anti-
submarine warfare capabilities which typically have been a 
competence of the United States Navy--something the Navy is, I 
think, putting a renewed emphasis on after having spent much of 
the past 15 years more focused on threats in the Middle East.
    Mr. Poe. Any other--Mr. Rose?
    Mr. Rose. Sir, I don't have anything more to add than what 
Dr. Long's----
    Mr. Poe. Dr. Kim?
    Ms. Kim. I don't have anything to add.
    Mr. Poe. And I want to go back to the South China Sea. What 
is the United States doing about the South China Sea? When I 
was over there it didn't seem like we were doing much about 
patrolling the South China Sea with the Navy. Has that changed 
any? Do you know, Dr. Kim? What is the United States' policy 
about keeping the sea lanes open, which I think is what China 
wants to do, close the South China Sea except with permission 
of China?
    The United States has always been the world leader in 
keeping the sea lanes open all the way back to the Barbary 
pirates day. Is that still our policy or not?
    Ms. Kim. Yes, it is, sir, and the United States' tool for 
enforcing that is freedom of navigation patrols, so that is 
what the United States has been doing. There is a debate about 
if we need to do more and so, you know.
    Mr. Poe. Well, do you think we ought to do more?
    Ms. Kim. It is hard for me to say at this time, but of 
course there could be more done. But I would say that I think 
it is more important to work with our allies so that they are 
also participating in these patrols so that they are also, you 
know, claiming or standing up for their claims. And I think it 
is very important that the United States keeps a neutral 
position so right now we don't take any sides on who owns what.
    Mr. Poe. Are you talking about the countries that are 
affected in the South China Sea?
    Ms. Kim. Yes, I am.
    Mr. Poe. Vietnam is a good example.
    Ms. Kim. That is right.
    Mr. Poe. And others that are concerned about China claiming 
the South China Sea.
    Ms. Kim. Yes. That is correct.
    Mr. Poe. So you think it is their responsibility to some 
extent to take care of their own business?
    Ms. Kim. Well, I think we should encourage them to stand up 
for their rights. I think the United States' presence in the 
area can encourage them to do more and to speak up for their 
claims and hopefully push all the sides to come to some sort of 
agreement on what to do about the status of these disputed 
territories.
    Mr. Poe. All right, thank you.
    Mr. Keating?
    Mr. Keating. I was just going to expand a little bit 
because we ran out of time on the idea of where to put our 
priorities and in terms of our nuclear priorities. In terms of 
the triad in particular, I mean how much--if we are going to 
look at where we are going, where to invest, where to more 
maintain our position--where do you think the emphasis should 
be on land-based weaponry?
    Mr. Rose. Sir, let me say I support the triad. I used to be 
somewhat skeptical but the more I have learned, very similar to 
Secretary Mattis. I mean you may have heard that he was 
initially very skeptical of the long-range standoff weapon and 
the ground-based strategic deterrent. But as you walk through 
these issues and you look through the challenges, it becomes 
more, I think, clear why you need these redundant capabilities.
    Mr. Keating. Okay. But here is what I wanted to focus in 
on. So yes or no, do you all agree we should maintain all 
aspects of the triad?
    Mr. Rose. Yes.
    Mr. Keating. Okay, thought so, but now to what extent? If 
you are looking at the need for cyber space and other areas--
you have mentioned underwater threats as greater threats--what 
level of confidence do we have just saying we have enough on 
the land based? We can modernize but not expand it--but really 
concentrate on the others. If you could just, all three, 
comment on that.
    Mr. Rose. Yes. Sir, though I support the triad, I think we 
face a challenge with fitting the modernization program into 
existing budgets. My priorities would be: Number one, the subs; 
two, B-21 plus the LRSO; and then three, GBSD.
    Mr. Keating. All right, thank you.
    Dr. Kim?
    Ms. Kim. My technical expertise doesn't extend here so I 
won't comment.
    Mr. Keating. Okay. Dr. Long?
    Mr. Long. I generally agree with Mr. Rose, but I don't know 
that I would agree with the prioritization. Part of the 
challenge is most of these systems have to live for a very long 
time. We are talking they will outlive probably anyone in this 
room, and so I think it is hard to say which capabilities will 
be of greatest utility 70 years from now.
    Mr. Keating. Where can we cut back, if anywhere?
    Mr. Long. I am skeptical there is a lot of room for cutback 
in the nuclear modernization program. It was a bipartisan 
agreement that I think, you know, needs to be maintained if for 
no other reason than that it is something that has been agreed 
to broadly. Both sides of the aisle, I think in both the Obama 
and Trump administrations, have more or less signed up for this 
program. I think it----
    Mr. Keating. Yes, but you are not elected. So do you have 
any opinion outside that framework?
    Mr. Long. I think realistically, it is the capabilities we 
need. I don't see a need for a great expansion of this, but I 
would be concerned about where we would be. I mean most of 
these programs take so long to field. Now we can talk about 
acquisition and maybe there are ways to improve that. But given 
the realities we face, I think it will be tough to say we can 
do with less of that given that we won't even know what we will 
get at the end of a program for 10 to 20 years.
    Mr. Keating. Dr. Rose, do you want to comment any further 
on that?
    Mr. Rose. Well, again, I support the triad. But as I have 
spoken and written about, I am concerned, you know, when you 
look at the existing budgets and our other priorities, because 
in addition to strategic modernization, we have to recapitalize 
our entire conventional force. So it is going to be a 
challenge. I think what is going to be required is that our 
elected leaders and the heads of the departments, including the 
Office of Management and Budget, watch this modernization 
program closely to make sure we are delivering the capabilities 
on time and on budget.
    Mr. Keating. Yes.
    Dr. Long?
    Mr. Long. If I could just add one thing. If there is one 
area I think should be prioritized--and it is discussed in the 
Nuclear Posture Review and Mr. Rose has mentioned it--is 
nuclear command and control. These systems typically are if not 
neglected at least harder to manage in the aggregate.
    Mr. Keating. Right.
    Mr. Long. They are not a discreet submarine, missile, 
bomber. They are more dispersed across land, across space, et 
cetera. So I think that if you are going to place emphasis 
anywhere, it touches on cyber because you have to make these 
systems cyber resilient. It touches on space because they 
extend into space.
    Mr. Keating. You preempted the last question I think I will 
have time for, and that is the threat of, you know, cyber on 
our systems. Obviously you prioritize it, so you think it is a 
great threat.
    Dr. Kim? Dr. Rose? Do you want to add to that because 
clearly we have the greatest system in the world, and if that 
is threatened, it will be rendered weak.
    Mr. Rose. Sir, I fully agree with that assessment. I was 
going through Director of National Intelligence Coats' annual 
threat assessment. Over the last 10 years the number one 
priority had been terrorism. This year it was cyber threats.
    Mr. Keating. Quite a statement. Okay, I thank all of you 
again and I yield back.
    Mr. Poe. I have one more question, sorry. Take these 
entities--ISIS, Iran, North Korea, China, and Russia. In your 
opinion, which is the greatest threat to the United States? You 
just can pick one. Dr. Long?
    Mr. Long. A lot would depend, but I think if you take the 
viewpoint of the Department of Defense as Secretary Mattis has 
expressed and Chairman Dunford has expressed, Russia is the 
only country that can pose an existential threat to the United 
States. Even China, at least at present, would have a hard time 
doing that.
    Mr. Poe. Dr. Kim?
    Ms. Kim. I would say our long-term strategic competitor in 
all domains will be China.
    Mr. Poe. Thank you.
    And Mr. Rose?
    Mr. Rose. I agree with both of them.
    Mr. Poe. No, you have to break the tie.
    Mr. Rose. That is why. But, you know, let me leave you with 
this last point. We have multiple threats we need to deal with. 
That is why we need our allies and strong alliances.
    Mr. Poe. Right. I thank you all. Thanks again for waiting 
for us while we were in a series of votes. This concludes the 
subcommittee, and the subcommittee is adjourned. Thank you very 
much.
    [Whereupon, at 3:14 p.m., the subcommittee was adjourned.]

  
                            A P P E N D I X

                              ----------                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
